<html>
<title> - QUESTION: WHAT IS MORE SCRAMBLED THAN AN EGG? ANSWER: THE FEDERAL FOOD INSPECTION SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
QUESTION: WHAT IS MORE SCRAMBLED THAN AN EGG? ANSWER: THE FEDERAL FOOD 
                           INSPECTION SYSTEM

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2005

                               __________

                           Serial No. 109-47

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-707                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
------ ------                        CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Chris Barkley, Professional Staff Member
                            Reid Voss, Clerk
          Mark Stephenson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2005.....................................     1
Statement of:
    Robinson, Robert A., Managing Director, Natural Resources and 
      Environment, U.S. Government Accountability Office; Robert 
      E. Brackett, Ph.D., Director, Center for Food Safety and 
      Applied Nutrition, Food and Drug Administration; Merle 
      Pierson, Ph.D., Acting Undersecretary for Food Safety, U.S. 
      Department of Agriculture; Jim Jones, Director of Pesticide 
      Programs, U.S. Environmental Protection Agency; and Richard 
      V. Cano, Acting Director, Seafood Inspection Program, 
      National Marine Fisheries Service..........................     3
        Brackett, Robert E.......................................    36
        Cano, Richard V..........................................    87
        Jones, Jim...............................................    79
        Pierson, Merle...........................................    63
        Robinson, Robert A.......................................     3
Letters, statements, etc., submitted for the record by:
    Brackett, Robert E., Ph.D., Director, Center for Food Safety 
      and Applied Nutrition, Food and Drug Administration, 
      prepared statement of......................................    39
    Cano, Richard V., Acting Director, Seafood Inspection 
      Program, National Marine Fisheries Service, prepared 
      statement of...............................................    89
    DeLauro, Hon. Rosa L., a Representative in Congress from the 
      State of Connecticut, prepared statement of................    58
    Jones, Jim, Director of Pesticide Programs, U.S. 
      Environmental Protection Agency, prepared statement of.....    81
    Pierson, Merle, Ph.D., Acting Undersecretary for Food Safety, 
      U.S. Department of Agriculture, prepared statement of......    65
    Robinson, Robert A., Managing Director, Natural Resources and 
      Environment, U.S. Government Accountability Office, 
      prepared statement of......................................     7


QUESTION: WHAT IS MORE SCRAMBLED THAN AN EGG? ANSWER: THE FEDERAL FOOD 
                           INSPECTION SYSTEM

                              ----------                              


                         TUESDAY, MAY 17, 2005

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2154, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Norton, Cummings, and Van 
Hollen.
    Staff present: Ron Martinson, staff director; B. Chad 
Bungard, deputy staff director/chief counsel; Chris Barkley and 
Shannon Meade, professional staff members; Reid Voss, 
legislative assistant/clerk; Patrick Jennings, detail from OPM 
serving as senior counsel; Mark Stephenson and Tania Shand, 
minority professional staff members; Earley Green, minority 
chief clerk; and Teresa Coufal, minority assistant clerk.
    Mr. Porter. Thank you, everyone, for being here. I 
appreciate your being with us this afternoon.
    We are actually going to start the meeting until we get a 
quorum, and then we will recess and get into the markup, which 
really should be shortly. But for the element of time and for 
those that are here, for the balance of the meeting, I'm going 
to start the issue regarding Federal food inspection, and then 
we will recess as soon as we have the quorum and go into the 
markup.
    So with that, again, thank you for being here and good 
afternoon. We're going to start by answering the question, what 
is more scrambled than an egg? The answer is the Federal Food 
Inspection System.
    I'd like to let everyone know again, for the record, that 
we will move into the markup, but this hearing is just about 
the basic commonsense in finding ways to achieve efficiency and 
economy for taxpayers.
    As chairman of the subcommittee, I will continue to look 
for ways to organize the government in a more effective manner 
and to do so in an expedited fashion, such as reconstituting 
Fast Track Authority for agency reorganization proposals.
    We have chosen to examine the food inspection process today 
only because of the seemingly nonsensical organizational 
structure of the inspection process itself. For example, if 
Congress were to set up an organizational structure today, I 
hardly believe that we would have the USDA inspect 
manufacturers of spaghetti with meat sauce, pepperoni pizza, 
open face meat and poultry sandwiches, corn dogs and beef broth 
daily and require the FDA to inspect manufacturers of spaghetti 
without meet sauce, cheese pizzas, close faced, which are 
traditional meat and poultry sandwiches, bagel dogs and chicken 
broth once every 5 years.
    We also would not require school lunches to be inspected 
twice, once by the USDA and once by the FDA. It is almost too 
hard to believe, but that's the organizational structure that 
we have today in the current food inspection system. I'm sure 
there was a method to this madness at one point in time, but we 
have to be more efficient and find a more effective way to 
organize the inspection process.
    At the hearing this subcommittee held last March, it looked 
into why the food inspection process has become what may seem 
like an organizational nightmare. It was uncovered that 10 
agencies are now responsible for executing more than 30 laws 
directing how the Federal Government inspects food. Moreover, 
the inspection process has become an intricate web of 
governmental agencies with responsibilities that often overlap 
one another, as I just cited a few moments ago. So the question 
then becomes, who is to blame for this? Well, actually, the 
blame for this organizational problem does not lie primarily 
with the past organizations, Republicans or Democrats, or with 
the food industry that has to live with this system. And as a 
matter of fact, many folks in the food industry would prefer we 
leave it the way it is. The blame lies primarily with Congress, 
which has haphazardly passed the laws making the system what it 
is today throughout the years. It has been a Band-Aided system.
    Though the organizational problems with the system are 
deep-seated. It does not let off the hook the agencies charged 
with inspecting food for improving upon the job that they're 
doing. I am deeply concerned with the findings uncovered by the 
Government Accountability Office, which are contained in the 
report I will release today, entitled, Federal Agencies Should 
Pursue Opportunities to Reduce Overlap and Better Leverage of 
Resources.
    The report focuses on the problem of overlap and 
duplications between the various food inspection agencies. GAO 
concentrated its investigation on the four agencies with the 
most food inspection responsibilities, the USDA, the FDA, EPA 
and National Marine Fisheries Service. As a result of the 
hearing, GAO has made a number of recommendations for the 
agency to better operate within the current operation 
structure. The subcommittee will be examining those 
recommendations today.
    One of the more troubling findings in the report, though, 
reveals that simply between the four agencies represented here 
today there are 71--yes, 71 memorandum of understanding to keep 
the agencies coordinating with one another. Of these 71 
agreements, GAO recovered that only in seven cases did all 
signatory agencies know that they were a party to the 
agreement. This means that in 64 of 71 agreements, one or more 
agencies were completely unaware that it was responsible for 
coordinating with another agency on a certain matter. This kind 
of example does not speak to safety of food. I want to make 
that clear. We're not here to talk about safety of food, 
although in the long run, it does have an impact. But we 
understood that we have one of the best and safest food systems 
in the world, we are just trying to make it more efficient. 
Rather, it highlights the need that the Federal Government is 
using the tax dollars taken from the American people as wisely 
and efficiently as possible. Anything less than a lean and well 
organized food inspection process is unacceptable.
    Regardless of the organizational ideas offered today, I 
would emphasize at the outset that everyone in this room is in 
agreement that we want our food supply to be safe, so that's 
not the issue.
    I thank our witnesses for being here, and I look forward to 
the discussion. Again, we are waiting for a quorum, so what I 
would like to do is ask all those on the panel to please stand, 
and I'll swear them in at this time.
    On the first panel today, we're going to hear from Robert 
Robinson. Mr. Robinson is the Managing Director of Natural 
Resources and Environment, Government Accountability Office. 
And we're going to hear from Dr. Robert Brackett, Director of 
the Center for Food Safety and Applied Nutrition at the Food 
and Drug Administration.
    Welcome.
    Then we'll hear from Dr. Merle Pierson, Acting 
Undersecretary for Food Safety at the U.S. Department Of 
Agriculture. And then we will be hearing from Mr. Jim Jones, 
Director of Pesticide Programs at the U.S. Environmental 
Protection Agency. And finally, we will hear from Richard Cano, 
Acting Director of the Seafood Inspection Program at the 
National Marine Fisheries Service.
    OK. What I'd like to do is let the record reflect the 
following.
    [Witnesses sworn.]
    Mr. Porter. Thank you very much. Would you please be 
seated.
    Mr. Robinson, welcome. Thank you for joining us today, you 
will be recognized for 5 minutes.

 STATEMENTS OF ROBERT A. ROBINSON, MANAGING DIRECTOR, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY 
 OFFICE; ROBERT E. BRACKETT, PH.D., DIRECTOR, CENTER FOR FOOD 
  SAFETY AND APPLIED NUTRITION, FOOD AND DRUG ADMINISTRATION; 
 MERLE PIERSON, PH.D., ACTING UNDERSECRETARY FOR FOOD SAFETY, 
    U.S. DEPARTMENT OF AGRICULTURE; JIM JONES, DIRECTOR OF 
 PESTICIDE PROGRAMS, U.S. ENVIRONMENTAL PROTECTION AGENCY; AND 
 RICHARD V. CANO, ACTING DIRECTOR, SEAFOOD INSPECTION PROGRAM, 
               NATIONAL MARINE FISHERIES SERVICE

                STATEMENT OF ROBERT A. ROBINSON

    Mr. Robinson. Thank you, Mr. Chairman.
    Thank you for holding this hearing and giving us the 
opportunity to express our views about the Federal food 
safety's food inspection structure.
    As you can see in our appendix to our statement, we have 
been weighing on this and related topics for quite some time. 
We first called for fundamental restructuring of the system in 
1992 when my hair color was decidedly different than it is 
today. In the more than a decade since then, some important 
progress has been made in making our food safety system more 
science based.
    Of particular note, the agencies have begun requiring 
companies to adopt the HACCP system to try to prevent 
contamination before it occurs, rather than simply dealing with 
it after it has been detected. HACCP shifted a significant 
share of responsibility for ensuring safe food from government 
to industry, and there are clear signs the industry has 
responded. However, the same structural problems and 
inefficiencies present in 1992 remain today. And in the 
intervening years, a number of trends have emerged that make 
the case for restructuring even more compelling today.
    First, as the Comptroller General pointed out in his 2003 
testimony before this subcommittee, our Nation is facing 
increasingly serious long-term fiscal challenges. We are on an 
unsustainable fiscal path that, without a change in course, 
could have future revenues unable to cover much more than 
interest on the debt just a few decades from now. If we ever 
could, we probably have reached a point where we can no longer 
afford a government weighed down by duplicative and overlapping 
missions and functions.
    Second, the chorus of voices calling for change is growing. 
While a number of industry associations we contacted in 
assembling our report continue to believe that the structural 
problems are not significant, many other stakeholders are 
coming to realize that the current structure doesn't meet the 
commonsense test. In fact, a number of food companies subjected 
to dual regulation by USDA and FDA told us that the overlaps 
can be burdensome as they deal with two sets of HACCP 
requirements and two sets of inspection approaches. In some 
cases, they even told us of conflicting direction being 
provided by different inspectors from different agencies.
    Likewise, the Institute of Medicine, the Consumer 
Federation of America and the National Commission on the Public 
Service have now also supported a move to a more consolidated 
structure.
    Third, several other countries have moved to a single food 
safety agency to increase efficiency, to eliminate conflicts of 
interest and improve the safety of their food supply. As we 
reported in February, officials in each of the seven developed 
countries we reviewed believe the overall effect of 
consolidation has been or is expected to be positive. For 
example, as the first exhibit to your left shows, the 
government of Denmark consolidated major food safety functions 
that were performed by three separate entities, numerous 
municipalities into a single agency, the Danish Veterinary and 
Food Administration. As the second exhibit shows, Canada also 
consolidated food inspection functions from food agencies into 
a single Canadian food inspection agency, while placing public 
health policy and standard setting with Health Canada.
    Finally, as we pointed out in the report you're releasing 
today, the overlap and duplication consequences of our current 
organizational structure are becoming more apparent. Because 
the key agencies still have jurisdiction over different 
segments of the food supply, USDA and FDA both conduct 
overlapping and even duplicative inspections at more than 1,450 
domestic food processing facilities that produce multi-
ingredient foods or different types of food. In our view, this 
represents an inefficient use of increasingly scarce government 
resources. For example, as shown in the third exhibit, a 
facility that the GAO team visited that produces both meat and 
seafood products and therefore comes under the jurisdiction of 
both USDA and FDA, the USDA inspector is there on a daily 
basis. And because of the physical plant layout, the inspector 
must walk through an area containing FDA-regulated seafood. 
However, because FDA regulates seafood, the USDA inspector does 
not monitor or inspect that section of the plant.
    As the final exhibit shows, most Federal food safety 
expenditures involve inspection or enforcement activities. 
Oddly enough, though, USDA spends about 75 percent of these 
inspection dollars, even though it is responsible for 
regulating about 20 percent of the food supply. Conversely, FDA 
regulates about 80 percent of the food supply, but spends only 
about 25 percent of these dollars.
    FDA and the seafood inspection program run by the National 
Marine Fisheries Service also conduct somewhat overlapping 
inspections at about 275 domestic seafood facilities. The NMFS 
program is a volunteer fee-for-service that is not mandated by 
legislation. However, FDA does not take full account whether 
NMFS has already inspected a facility when devising its 
inspection plans.
    USDA and FDA also both inspect imported foods at U.S. ports 
of entry, and the agencies also visit foreign countries to 
perform equivalence exams, but they do so under significantly 
different authorities. Thus, in 2004, USDA conducted 
equivalence reviews in 34 countries that supply meat and 
poultry products to the United States. FDA also sent separate 
teams to conduct inspections in 6 of these same 34 countries.
    Finally, USDA and FDA spend millions of dollars each year 
developing and delivering food inspection training that could 
easily be unified.
    Testifying to the cumbersome structure in an effort to 
reduce duplication of effort, among other objectives, Federal 
agencies have developed at least 71 interagency agreements. 
Unfortunately, the agencies are having difficulty trying to 
make these agreements work because they don't have adequate 
mechanisms for tracking them; in many cases, couldn't identify 
that they existed. In other cases, they simply have not been 
able to implement them effectively on a day-to-day basis.
    Mr. Chairman, at the end of the day, we continue to hold 
the view that we first expressed more than a decade ago, the 
Federal Food Safety Inspection System is fragmented and based 
on outdated laws that reduce its effectiveness and efficiency.
    The millions of foodborne illnesses and thousands of 
hospitalizations in foodborne disease-related deaths tell us we 
can be more effective. The duplicative inspections, overlapping 
training and uneven information-sharing among agencies tell us 
we can be more efficient. The experiences of seven developed 
countries that moved forward and consolidated their previously 
fragmented operations tell us that better operations are 
possible.
    And finally, the Nation's growing fiscal imbalance tells us 
that there is growing urgency to address inefficiencies 
whenever we find them. With that, let me pause, and I would be 
anxious to answer questions when the time comes.
    [The prepared statement of Mr. Robinson follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.001
    
    [GRAPHIC] [TIFF OMITTED] T2707.002
    
    [GRAPHIC] [TIFF OMITTED] T2707.003
    
    [GRAPHIC] [TIFF OMITTED] T2707.004
    
    [GRAPHIC] [TIFF OMITTED] T2707.005
    
    [GRAPHIC] [TIFF OMITTED] T2707.006
    
    [GRAPHIC] [TIFF OMITTED] T2707.007
    
    [GRAPHIC] [TIFF OMITTED] T2707.008
    
    [GRAPHIC] [TIFF OMITTED] T2707.009
    
    [GRAPHIC] [TIFF OMITTED] T2707.010
    
    [GRAPHIC] [TIFF OMITTED] T2707.011
    
    [GRAPHIC] [TIFF OMITTED] T2707.012
    
    [GRAPHIC] [TIFF OMITTED] T2707.013
    
    [GRAPHIC] [TIFF OMITTED] T2707.014
    
    [GRAPHIC] [TIFF OMITTED] T2707.015
    
    [GRAPHIC] [TIFF OMITTED] T2707.016
    
    [GRAPHIC] [TIFF OMITTED] T2707.017
    
    [GRAPHIC] [TIFF OMITTED] T2707.018
    
    [GRAPHIC] [TIFF OMITTED] T2707.019
    
    [GRAPHIC] [TIFF OMITTED] T2707.020
    
    [GRAPHIC] [TIFF OMITTED] T2707.021
    
    [GRAPHIC] [TIFF OMITTED] T2707.022
    
    [GRAPHIC] [TIFF OMITTED] T2707.023
    
    [GRAPHIC] [TIFF OMITTED] T2707.024
    
    [GRAPHIC] [TIFF OMITTED] T2707.025
    
    [GRAPHIC] [TIFF OMITTED] T2707.026
    
    [GRAPHIC] [TIFF OMITTED] T2707.027
    
    [GRAPHIC] [TIFF OMITTED] T2707.028
    
    [GRAPHIC] [TIFF OMITTED] T2707.029
    
    Mr. Porter. Thank you, Mr. Robinson.
    I would like to take this time now to recess our hearing on 
the food inspection system and open our hearing regarding the 
markup on H.R. 994, H.R. 1283 and H.R. 1765.
    [Recess.]
    Mr. Porter. We will go back to the other hearing, and bring 
it back into session, and that's the Federal Food Inspection 
System.
    Thank you, Mr. Robinson, again for your testimony.
    And I would now like to ask Robert Brackett, again, 
Director of Center for Food Safety and Applied Nutrition, Food 
and Drug Administration, you are recognized for 5 minutes.

             STATEMENT OF ROBERT E. BRACKETT, PH.D.

    Mr. Brackett. Thank you. And good afternoon, Chairman 
Porter and members of the subcommittee.
    I am Robert E. Brackett, Ph.D, Director of the Center for 
Food Safety and Applied Nutrition at the FDA, which is part of 
the Department of Health and Human Services.
    Thank you for this opportunity to discuss the role that the 
HHS plays in the Federal Food Safety System. As has been 
stated, ensuring the safety of the food supply continues to be 
a top priority for HHS and the administration, and so I am 
pleased to be here today with my colleagues from USDA, EPA and 
the National Marine Fisheries Service.
    Your letter of invitation mentioned that this hearing will 
examine the need for reorganizing Federal food safety 
activities. The current system of interagency coordination is 
helping to improve the safety of the food supply and will 
continue to look for new ways to further this coordination. The 
American food supply continues to be among the safest in the 
world, and the current Federal Food Safety System is working 
well.
    Just last month, the Centers for Disease Control 
Prevention, in collaboration with FDA and USDA, released a 
report with preliminary surveillance data that showed important 
declines in 2004 in foodborne infections due to common 
pathogens. This report shows that we are achieving significant 
public health outcomes in the effort to reduce the incidence of 
foodborne illness to the lowest level possible.
    FDA is the Federal agency that regulates everything we eat 
except for meat, poultry and egg products, which are regulated 
by our partners at USDA. FDA's responsibility also extends to 
life-food animals and animal feed.
    You asked about our role in the food inspection system. In 
fact, FDA has many roles. For example, FDA conducts 
investigations into foodborne illness outbreaks, along with CDC 
and our Federal and State partners. And FDA conducts 
inspections of food manufacturing facilities. We utilize a 
risk-based approach and expect high-risk facilities with 
greater frequency than low-risk facilities. We have many 
contract and partnership agreements with States to assist us 
with the domestic inspection activities. In addition, FDA works 
closely with States and local officials on inspections at the 
retail level.
    For foreign producers, FDA conducts a limited number of 
compliance inspections of high-risk food facilities, such as 
firms that manufacture low-acid can foods or infant formula. 
FDA also works through the international organization such as 
Codex Alimentarius to establish international standards. 
Through this mechanism, we extend science-based inspection of 
standards worldwide.
    To manage the ever-increasing volume of imported food 
shipments, we also utilize risk-management strategies. Through 
the use of an electronic screening system, FDA is able to 
concentrate its inspection resources on high-risk shipments 
while allowing the low-risk shipments to proceed into commerce. 
FDA personnel conduct examinations and collect and analyze 
samples as necessary to determine compliance with FDA's food 
safety requirements.
    You asked FDA to respond to a recent report by GAO about 
the use of Federal food safety resources. And we certainly 
share GAO's interest in finding ways to make FDA more 
efficient. However, we do not believe the report provides an 
accurate assessment of how to achieve this. We do not agree 
with GAO's characterization of what constitutes overlap. In 
processing establishments, there are no food products that both 
FDA and USDA regulate. Each agency inspects those products over 
which it has jurisdiction. The FDA and USDA inspectors have 
different educational backgrounds, have received different 
training and have responsibility for different food products 
and industries.
    GAO's report cites the inspection of dual jurisdiction 
establishments, so-called DJEs, as a primary example of 
overlapping and efficiency. DJEs are facilities that are 
regulated by both FDA and USDA because the establishment 
produces food products that fall under each agency's 
jurisdiction. We do not agree with GAO's emphasis on inspection 
of these facilities as a way to save resources and achieve 
efficiencies. DJEs comprise less than 2 percent of the total 
food processing or manufacturing facilities in the United 
States, and further, the report did not seem to take into 
account the fact that more than half of the 1,451 dual 
jurisdiction facilities are low-risk facilities, such as 
warehouses, that do not require a high inspection frequency. 
Thus, the opportunity for achieving efficiencies through 
leveraging of inspection resources for these facilities is 
quite small.
    As noted in the report, FDA and USDA's Food Safety and 
Inspection Service have signed a memorandum of understanding to 
facilitate the sharing of information about DJEs. This MOU has 
been successful in enhancing collaborative activities to 
improve public health protection. To further strengthen this 
MOU, we have agreed to conduct some additional joint training. 
We are also following up on GAO's report recommendations to 
inventory all active interagency agreements and to evaluate and 
update them as necessary.
    I would like now to provide some other examples of 
successful collaborations with our food safety partners. HHS, 
USDA, EPA and other agencies are working with the Department of 
Homeland Security to achieve the objectives of homeland 
security Presidential Directive No.'s 7, 8, and 9, which 
identify critical infrastructures, improve response planning, 
and establish a national policy to defend the agriculture and 
food systems against terrorist attacks, major disasters and 
other emergencies.
    DHS serves as the coordinator of the food and agriculture 
sector, with the FDA and HHS as the lead for the food sector, 
and the Homeland Security Office and USDA as the lead for the 
agricultural sector. Today, FDA and FSIS are also announcing a 
joint proposal to establish a set of general principles for 
evaluating existing and proposed food standards. General food 
standards are used to ensure that products sold under 
particular names have the characteristics expected by 
consumers. Adherence to the proposed principles will result in 
more modern standards that will better promote honesty and fair 
dealing, and will allow for technological advances for food 
processing. Such technological advances mean enhanced 
manufacturing efficiency and reduced costs, which could benefit 
consumers through lower prices and increased product diversity 
in the marketplace.
    In conclusion, FDA is working closely with its Federal food 
safety partners and others to protect the food supply from 
deliberate and accidental contamination. And as a result of 
this effective collaboration, the Federal Food Safety System is 
stronger than ever before.
    Thank you, Mr. Chairman. I would be pleased to respond to 
any questions.
    [The prepared statement of Mr. Brackett follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.030
    
    [GRAPHIC] [TIFF OMITTED] T2707.031
    
    [GRAPHIC] [TIFF OMITTED] T2707.032
    
    [GRAPHIC] [TIFF OMITTED] T2707.033
    
    [GRAPHIC] [TIFF OMITTED] T2707.034
    
    [GRAPHIC] [TIFF OMITTED] T2707.035
    
    [GRAPHIC] [TIFF OMITTED] T2707.036
    
    [GRAPHIC] [TIFF OMITTED] T2707.037
    
    [GRAPHIC] [TIFF OMITTED] T2707.038
    
    [GRAPHIC] [TIFF OMITTED] T2707.039
    
    [GRAPHIC] [TIFF OMITTED] T2707.040
    
    [GRAPHIC] [TIFF OMITTED] T2707.041
    
    [GRAPHIC] [TIFF OMITTED] T2707.042
    
    [GRAPHIC] [TIFF OMITTED] T2707.043
    
    [GRAPHIC] [TIFF OMITTED] T2707.044
    
    [GRAPHIC] [TIFF OMITTED] T2707.045
    
    [GRAPHIC] [TIFF OMITTED] T2707.046
    
    [GRAPHIC] [TIFF OMITTED] T2707.047
    
    Mr. Porter. Thank you, Mr. Brackett. Before we move on, I 
would like to ask unanimous consent to submit testimony from 
Congresswoman Rosa L. DeLauro. Any objections? Thank you.
    [The prepared statement of Hon. Rosa L. DeLauro follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.048
    
    [GRAPHIC] [TIFF OMITTED] T2707.049
    
    [GRAPHIC] [TIFF OMITTED] T2707.050
    
    [GRAPHIC] [TIFF OMITTED] T2707.051
    
    [GRAPHIC] [TIFF OMITTED] T2707.052
    
    Mr. Porter. Next, Dr. Pierson, welcome, Acting 
Undersecretary for Food Safety, U.S. Department of Agriculture, 
you are recognized for 5 minutes.

               STATEMENT OF MERLE PIERSON, PH.D.

    Mr. Pierson. Good afternoon, Mr. Chairman, and members of 
the subcommittee. I appreciate the opportunity to speak about 
the important issue of protecting the Nation's food supply.
    I'm Dr. Merle Pierson, Acting Undersecretary for Food 
Safety at the U.S. Department of Agriculture.
    The mission of the agency under the Food Safety Inspection 
Service is to ensure that meat, poultry and egg products 
prepared for use assembling food are safe, secure, wholesome 
and accurately labeled. FSIS is charged with administering and 
enforcing the Federal Meat, Poultry and Egg Products Inspection 
Acts.
    Ensuring the safety of meat, poultry and egg products 
requires a strong infrastructure. FSIS has a work force of over 
7,600 inspection personnel in approximately 6,000 federally 
inspected meat, poultry and egg product plants, import 
establishments every day. These public health inspection 
personnel verify each year that 43.6 billion pounds of red 
meat, 49.2 billion pounds of poultry, and 33.7 billion pounds 
of liquid egg products, as well as 4.2 billion pounds of 
imported products comply with the agency's regulatory 
requirements.
    Our efforts are paying off, as seen by the decline in 
foodborne illness over the last 7 years. Last month, the 
Centers for Disease Control and Prevention reported continued 
reductions in foodborne illnesses in 2004 from E. Coli 157:H7, 
Listeria monocytogenes, Camplyobacter, Yersinia, and 
Salmonella.
    The CDC contributes the changes in the incidents of these 
infections in part to the control measures implemented by 
government and industry leaders, enhanced food safety education 
efforts and increased attention by consumer groups and the 
media. Through close cooperation, communication and 
coordination, Federal agencies and others do work effectively 
together to ensure a safe and secure food supply. As a partner 
in the U.S. food safety effort, Food Safety Inspection Service 
strives to maintain a strong working relationship with its 
sister public health agencies.
    We appreciate the GAO's efforts in producing their March 
2005 report on what they call overlaps in the Federal Food 
Safety System. However, I am concerned with any assessment that 
oversimplifies the food safety regulatory functions of FSIS and 
FDA, as well as others. And it is not clear on the inherent 
complexities and differences in our work. It is important to 
recognize that while FSIS and FDA inspection activities may 
seem similar in some cases, there are essential differences due 
to their authorities and responsibilities.
    I want to point out that considering what GAO describes as 
jurisdictional overlap between FSIS and FDA, particularly with 
regard to dual jurisdiction establishments, the amount of food 
products and number of establishments that fall within these 
dual jurisdiction establishments is small compared to what the 
two agencies regulate independently.
    Another topic the GAO report dealt with, the joint 
training: Both FSIS and FDA HAPCC and sanitation is important 
aspects of the regulations, and there are certain similarities 
in hazards and their controls. However, in the broader context, 
specific food safety hazards and sanitary approaches differ 
greatly by product, thus necessitating differences in 
provisions in how the rules are applied.
    FSIS's HACCP regulations apply to all meat and poultry 
products. FDA has two of its inspected commodities, seafood and 
juices, under mandatory HACCP.
    FSIS has experienced considerable change over the past few 
years with the adoption of a HACCP-based regulatory system, an 
implementation of policies that have worked to provide a 
significant reduction in foodborne illness. It is essential 
that the agency's resources be effectively directed toward 
those areas of greatest risk and not be diverted to efforts 
that have little potential for improving public health.
    We look forward to working with Congress, GAO and our food 
safety partners to continue the best we can to make our 
Nation's food supply the safest in the world. Thank you.
    [The prepared statement of Mr. Pierson follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.053
    
    [GRAPHIC] [TIFF OMITTED] T2707.054
    
    [GRAPHIC] [TIFF OMITTED] T2707.055
    
    [GRAPHIC] [TIFF OMITTED] T2707.056
    
    [GRAPHIC] [TIFF OMITTED] T2707.057
    
    [GRAPHIC] [TIFF OMITTED] T2707.058
    
    [GRAPHIC] [TIFF OMITTED] T2707.059
    
    [GRAPHIC] [TIFF OMITTED] T2707.060
    
    [GRAPHIC] [TIFF OMITTED] T2707.061
    
    [GRAPHIC] [TIFF OMITTED] T2707.062
    
    [GRAPHIC] [TIFF OMITTED] T2707.063
    
    [GRAPHIC] [TIFF OMITTED] T2707.064
    
    [GRAPHIC] [TIFF OMITTED] T2707.065
    
    [GRAPHIC] [TIFF OMITTED] T2707.066
    
    Mr. Porter. Thank you, Doctor, I appreciate it.
    Thank you, Doctor.
    Now we will hear from Jim Jones, Director of Pesticide 
Programs, U.S. Environmental Protection Agency. You are 
recognized for 5 minutes.

                     STATEMENT OF JIM JONES

    Mr. Jones. Good afternoon, Mr. Chairman, and members of the 
committee. My name is Jim Jones, and I serve as the Director of 
the Office of Pesticide Programs at the U.S. Environmental 
Protection Agency. I appreciate the opportunity to discuss 
EPA's role in food safety and how we coordinate with other 
Federal agencies on this important topic.
    EPA's main food safety responsibility is to regulate 
pesticides, including setting health-based standards for 
pesticides use in food production, and ensuring our decisions 
promote the protection of public health and the environment. 
The EPA protects public health through the registration or 
licensing of pesticides prior to their marketing and use in the 
United States under the authority of the Federal Insecticide, 
Fungicide and Rodenticide Act, as well as setting and 
reevaluating tolerances or legal maximum residue levels under 
the Federal Food, Drug and Cosmetic Act. This requires use of a 
scientifically sound risk assessment process to consider the 
potential risks of pesticide use not only to human health, but 
to the environment as well.
    Registration tolerances will be granted only if EPA 
determines that there is a reasonable certainty of no harm from 
exposure to the pesticide residues in food and the use of the 
pesticide will not pose an unreasonable risk to human health or 
the environment.
    In addition to pesticides, EPA also works closely with FDA 
on the development and publication of National Fish Advisories 
for fish and shellfish. While EPA is responsible for 
establishing pesticide tolerances during the registration 
process, FDA and USDA's Food Safety Inspection Service enforce 
these tolerances. If pesticide residues on food or feed exceed 
the tolerance, or if no tolerance exists for such pesticide 
residues, the food or feed would be subject to regulatory 
action.
    EPA actively cooperates and collaborates with FDA and FSIS 
regarding tolerance levels for pesticide residues on both 
domestically produced and imported foods. Some of the data EPA 
uses when establishing tolerances are generated through 
interagency agreements with USDA, FDA and the Centers for 
Disease Control and Prevention. These agreements provide 
valuable information related to food consumption patterns, 
pesticide use and expected levels of pesticide residues once 
food products actually reach the consumer.
    The Agency is also partner to a number of agreements in 
areas such as training for agricultural workers, providing 
alternatives to the use of pesticides and coordinating work on 
pesticide residues.
    As mentioned by Dr. Brackett, EPA is collaborating with 
other food safety agencies, including FDA and USDA and the 
Department of Homeland Security on a number of initiatives to 
protect the Nation's food supply from natural, unintended or 
malicious threats.
    In closing, EPA is committed to continuing to work with our 
Federal partners, including FDA, USDA and others, to ensure 
that the United States maintains its well-earned reputation for 
protecting the safety of our Nation's food supply.
    Mr. Porter. Thank you, Mr. Jones. We appreciate that.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.067
    
    [GRAPHIC] [TIFF OMITTED] T2707.068
    
    [GRAPHIC] [TIFF OMITTED] T2707.069
    
    [GRAPHIC] [TIFF OMITTED] T2707.070
    
    [GRAPHIC] [TIFF OMITTED] T2707.071
    
    [GRAPHIC] [TIFF OMITTED] T2707.072
    
    Mr. Porter. Next we have Richard Cano, Acting Director of 
Seafood Inspection Program, National Marine Fisheries Services. 
You are recognized for 5 minutes. Thank you for being here.

                  STATEMENT OF RICHARD V. CANO

    Mr. Cano. Mr. Chairman and members of the committee, thank 
you for inviting me to speak on the GAO report, Oversight of 
Food Safety Activities. I am Richard Cano, Acting Director of 
the Seafood Inspection Program of the National Oceanographic 
and Atmospheric Administration [NOAA]. My testimony today will 
provide a brief description of the Seafood Inspection Program 
and comment on the GAO report.
    NOAA oversees the fishery management in the United States. 
Through the delegated authority of both the Agricultural 
Marketing Act of 1946 and the Fish and Wildlife Act of 1956, 
NOAA provides voluntary seafood inspection programs on a fee-
for-service basis.
    The NOAA Seafood Inspection Program offers a variety of 
professional inspection services, including vessel and plant 
sanitation, product inspection, laboratory analysis, training 
and consultation. These activities ensure that products from 
firms participating in the NOAA Seafood Inspection Program 
comply with all applicable Federal regulations.
    Our inspections, both in the United States and in other 
countries, examine facility conditions, personnel practices and 
safety and effectiveness of protocols. To ensure safe and 
properly labeled products, our evaluation considers both the 
risks associated with the product and the manufacturing 
process. We inspect products directly at the facility and by 
taking random samples from warehouses.
    NOAA also certifies products by periodically monitoring 
written industry control systems to ensure facilities are 
meeting their responsibilities. For example, we use Hazard 
Analysis Critical Control Point [HACCP], techniques that focus 
on hazard identification, problem prevention and corrective 
actions taken by industry to produce complying products.
    By identifying and monitoring control points in the 
process, our HACCP-based program helps ensure that requirements 
such as proper labeling and quality attributes are met, in 
addition to safety.
    In 1974, NOAA signed a memorandum of understanding with the 
Food and Drug Administration and the Department of Health and 
Human Services recognizing our agencies' related 
responsibilities. This agreement is designed to outline a 
working relationship in the public interest to enable each 
agency to discharge as effectively as possible its 
responsibilities related to the inspection and standardization 
activities for fishery products. In general, this agreement 
outlines requirements regarding adulterated and misbranded 
products, how best to maximize resources, and the need for 
effective communication between the agencies.
    The most notable accomplishment under this agreement has 
been in the area of training. NOAA's inspection staff has 
benefited from FDA's willingness to provide access to their 
online training modules. Since January 2003, NOAA personnel 
have completed approximately 9,100, a combined employee total, 
of the FDA online courses.
    In addition, most NOAA workshops on sensory evaluation of 
fishery products are jointly instructed by both NOAA and FDA 
personnel, and NOAA provides an instructor to assist FDA in 
retail training courses. However, both the FDA and NOAA believe 
this agreement, which is now more than 30 years old, needs to 
be assessed in the light of changing roles and 
responsibilities, and we have been in discussions with FDA on 
this. Both industry and other agencies use the NOAA Seafood 
Inspection Program to ensure that fishery products procured and 
distributed comply with regulatory requirements, purchasing 
specifications and consumer expectations.
    As the GAO report outlined, several agencies are involved 
in food safety oversight. In general, we believe the report 
does a fair and thorough job of describing the major food 
safety activities at NOAA.
    As the GAO report outlines, in fiscal year 2003, of the 
$1.7 billion spent on food safety-related activities, NOAA 
spent just under $22 million, only approximately 1 percent of 
the total expenditure.
    The GAO report made several recommendations, and I will 
focus on those directly relevant to NOAA. As I mentioned 
earlier, the FDA and NOAA have an interagency agreement. We 
agree with the GAO recommendation for FDA and NOAA to ensure 
the implementation of this agreement, and we will continue to 
work with the appropriate components of FDA in order to do 
this.
    In addition, the report recommends that the leaders of each 
of the agencies discussed in the report identify and inventory 
all active interagency food safety-related agreements, evaluate 
the need for these agreements and, where necessary, update the 
agreements to reflect recent legislative changes, technological 
advances and current needs. We agree with this recommendation 
and will establish an inventory of active, interagency, food-
related agreements on which NOAA is a signatory.
    In addition, NOAA will contact the applicable agencies 
associated with food safety-related agreements whenever NOAA 
believes an agreement should be revised.
    Mr. Chairman, members of the committee, thank you for 
inviting me here to speak about our Seafood Inspection Program 
and the recommendations in the GAO report. I will be happy to 
answer any questions you may have.
    Mr. Porter. Thank you, Mr. Cano. I appreciate that.
    [The prepared statement of Mr. Cano follows:]

    [GRAPHIC] [TIFF OMITTED] T2707.073
    
    [GRAPHIC] [TIFF OMITTED] T2707.074
    
    [GRAPHIC] [TIFF OMITTED] T2707.075
    
    Mr. Porter. I would like to start by asking a question to 
all of you and would like a response.
    In the GAO's report, they identified over 71 memoranda of 
understanding, MOUs, between the four agencies present today. 
Unbelievably, in only seven cases do all agencies party to an 
agreement identify that they were a part of such an MOU. This 
means in 64 of 71 cases, one or more agencies had no idea they 
were part of an agreement.
    How would you explain this?
    We will start with Mr. Brackett.
    Mr. Brackett. Thank you, Mr. Chairman.
    Many of these MOUs actually were written for specific 
issues at the time. Many of them were also written at the local 
level. These were meant to be operational, and in some cases 
where the issue in the past may no longer be applicable, but 
they were never taken off the books, consequently, what FDA is 
doing is actually doing the inventory as was suggested by GAO, 
looking through our MOUs, revising them if necessary, 
sunsetting those that don't apply, and perhaps leaving those 
alone that are working well.
    Mr. Pierson. We also look at the MOUs in a similar fashion 
to which Dr. Brackett has just commented on.
    These have evolved over the years. If you notice, some of 
these go back into the 1970's and 1980's and the like. We 
certainly agree that they do deserve review. FSIS certainly is 
willing to take a look at those MOUs that apply to them and see 
whether or not we should revise them or sunset them or whatever 
is appropriate for the MOUs.
    MOUs have served a very, very important purpose for us in 
many cases, and I just think of one now, for instance, with the 
Public Health Service. We have an MOU with them relative to 
members of the Public Health Service to become part of our Food 
Safety Inspection Service, and we have a number of physicians 
and veterinarians who are uniformed and work for us. For 
example, our administrator of our Office of Public Health 
Science is a physician from the Public Health Service, and he 
is over there in part because of this MOU that was created.
    So they do serve a very useful purpose, but, yes, 
historically the ones that are there need to be reviewed, and 
we will be doing that. Thank you.
    Mr. Jones. I would agree with my colleagues on some of the 
reasons why these MOUs have not been tracked as aggressively as 
they should have been. Many of them at the Agency, the EPA, are 
over 30 years old. We have now identified a tracking system to 
make sure we have in front of us all the existing MOUs, and we 
will be going back to look at them for their relevance. Some of 
them may be sunsetted and some of them, updated.
    Mr. Cano. As I mentioned, we are intending to establish an 
inventory and to followup on any of the MOUs that NOAA is a 
signatory to and that appear to need revision.
    Mr. Robinson. Mr. Chairman, could I just make a quick 
summary comment?
    Based on my 32 years of experience doing this kind of work, 
any system that requires, at least--and I emphasize, at least--
71 interagency agreements to function is a system built for 
problems. People retire. Agreements that are made on the ground 
are based on human relations. Those things change over time. 
Pretty soon, as we discovered in this particular case, folks 
drift away and agreements are forgotten or not aggressively 
implemented.
    The whole system that begs for this volume of interagency 
agreement is a system that is severely handicapped, in our 
opinion.
    Mr. Porter. It seems to me that these MOUs were the basis 
for cooperation, supposed cooperation.
    I know, Mr. Brackett, you mentioned they were for local 
operational purposes. Can you expand upon that a little more?
    Mr. Brackett. Sure, Mr. Chairman.
    Many of these had very specific purposes. In one that we 
have, for instance, with the Food Safety and Inspection 
Service, it was specifically designed for information sharing, 
particularly at the district level. That one actually called 
for a reassessment after 1 year, which was done. It was not 
reassessed after that because the MOU didn't request that. But 
that particular operational MOU has continued on, and it has 
been one of the more successful operational MOUs we have had, 
as sort of evidenced by many of the joint enforcement actions 
it has prompted.
    Mr. Porter. Thank you.
    Mr. Marchant, do you have any questions?
    Mr. Marchant. Thank you, Mr. Chairman.
    The administration has put forth a proposal for results 
commissions which would examine sectors of the government in 
need of reform and issued recommendations for reorganization. 
Under the proposal, Congress would vote the recommendation up 
or down without amendment.
    What is each of your opinions on promoting such a fast 
track reorganization legislation to solve these problems we are 
talking about today?
    Mr. Brackett. Thank you, Mr. Marchant.
    I am not in a position really to state with any authority 
what reorganization proposals the administration would 
contemplate, referring to commissions for consideration, but I 
am certain the administration is not currently contemplating a 
commission that would consider reorganization of the food 
safety agencies at this point.
    Mr. Marchant. Mr. Pierson.
    Mr. Pierson. Yes. Certainly we are supportive of any effort 
where we can better address public health. That is our 
baseline, is effectively addressing public health. However, 
without knowing all the details, etc., of what is proposed and 
what will finally transpire, it is very, very difficult to 
comment specifically on that.
    But I might say that the White House has established a 
Policy Coordinating Committee, led by the Domestic Policy 
Council and the National Economic Council, to look into the 
issue of a single food safety agency. I believe this was in 
2002. The Policy Coordinating Committee did conclude that the 
goals of the administration are better advanced through 
enhanced interagency coordination, rather than through the 
development of legislation to create a single food safety 
agency; and that is the current position of this 
administration.
    We feel that we have worked very effectively together, and 
I think the outcomes, as seen, for example, by CDC, speak very 
loudly to the success of effectively addressing food safety and 
assuring public health.
    Mr. Marchant. Mr. Jones.
    Mr. Jones. Yes. Similar to my colleagues, I don't feel like 
I am in a position to speak directly to the question related to 
the results commission.
    Mr. Cano. Similarly, I am not prepared to comment on that.
    Mr. Marchant. You have recommended that all agencies 
coordinate better when evaluating the food inspection system in 
foreign countries. How do you think that this can be done in 
the most effective and useful way for all the agencies?
    Mr. Robinson. Well, Mr. Marchant, I think we come back to 
where we have been for quite some time, that a consolidated 
enterprise is the best way to proceed. A single food safety 
agency that is independent, free of inherent conflicts of 
interest, able to move resources about, to ensure two 
delegations from two different agencies are in the same country 
in the same year, evaluating essentially the same kinds of 
things, is the way to go.
    Again, systems built on trying to make interagency 
agreements function are suboptimal by their definition, in our 
opinion.
    Mr. Marchant. Can you tell me, are the agencies self-
funded? Do the companies that you inspect the food of pay the 
fees that fund the agencies?
    Mr. Robinson. I will let the administration witnesses speak 
for their own agencies, but in general, this is about--at least 
in the last year we had complete data, about $1.7 billion in 
appropriated funds were applied here. NIMS essentially operates 
their enterprise on a fee-for-service basis, so they don't 
receive a great deal of appropriated funds to conduct their 
activities. They are done on a fee-for-service basis.
    The rest of the agencies operate with appropriated funds, 
with the exception of FSIS line inspectors; when they go into 
overtime mode, the companies pay for the overtime. But the 
regular tours of duty are paid for out of appropriated funds.
    Mr. Marchant. Thank you.
    Mr. Porter. Actually, I have a question for Dr. Pierson and 
Dr. Brackett regarding the cheese pizzas. You think it makes 
the most economically and efficient sense to require the USDA 
to inspect pepperoni pizzas and require the FDA to inspect 
cheese pizzas?
    Actually, both of you.
    Mr. Pierson. Certainly. This example has been used time and 
time again as something where there appear to be very serious, 
very large problems, discrepancies, etc.
    Let me point out, like Dr. Brackett pointed out, first of 
all, that these dual-jurisdiction establishments amount to a 
very, very low percentage of volume and numbers of 
establishments that we are dealing with. The vast bulk of our 
inspection system deals strictly with meat, poultry and egg 
products, not dual-jurisdiction establishments.
    Our inspectors are required to be present daily by statute. 
They are in these operations daily, where you would find meat 
and poultry-topped products. We do have--through our MOU, we 
feel the flexibility that if FSIS sees or perceives something 
that is out of line, we can contact our colleagues at FDA and 
inform them of a situation that is out of line or not 
appropriate or meeting what we feel would be, potentially, 
regulatory requirements.
    Certainly this type of thing should be given consideration. 
For example, the meat and poultry that goes on the pizzas has 
already been federally inspected and passed, and we feel that 
these sorts of products are, to us, low-risk products.
    Mr. Porter. Thank you.
    Mr. Brackett. Mr. Chairman, as Dr. Pierson said, many of 
these sorts of confusing products are very small in comparison 
to the rest of the food that we regulate, but nevertheless, 
they have evolved over the years for numerous reasons, and 
sometimes they may confuse some people.
    We have discussed with our partners at FSIS, and will 
continue to discuss, ways that we can clarify the jurisdiction; 
and at some point in the future we would hope that we could 
also provide this to the public for input also to see if we can 
clarify better.
    Mr. Porter. It seems to me this has been a problem for a 
decade or more.
    I guess, to followup on your answer, or partial answer, to 
my question, I have outlined five or six, maybe seven different 
areas of duplication. Why haven't you done something about 
that? Why haven't you taken the initiative to correct and 
create a more efficient program and more economical program for 
the American people? Is it something not important, so you 
allow it to continue, or am I missing something here?
    Mr. Pierson. First of all, we are very concerned about the 
resources and how we effectively apply those resources. We feel 
that we do a pretty good job of that in, again, effectively 
applying one to better provide protection, public health 
protection.
    There are management issues that we do in fact continually 
address. There are just a number of issues that we do 
constantly sort out of how we can better coordinate, cooperate 
in terms of our effectivenesses and efficiencies.
    I disagree with GAO's previous reports that there is this 
matrix that has been evolving. And certainly we do not have the 
instantaneous solution, but we are giving these, I think, due 
consideration.
    Mr. Brackett. Well, Mr. Chairman, the first thing I would 
like to point out is, again, there are no foods that are 
inspected duplicatively by both FSIS and USDA. We inspect those 
ingredients or those foods for which we have statutory 
authority, and that is the reason that is set up that way.
    But, nevertheless, there are a number of foods, such as 
those that you have mentioned, where the jurisdiction may not 
be as clear to the outside. But, nevertheless, one or the other 
of us is inspecting those, is making sure that they are safe; 
and of course, in our minds, what is of foremost importance is 
public health.
    Mr. Porter. I appreciate that everyone in this room 
believes everything is for the health of the American people. I 
think that it is important to state it again, and I appreciate 
hearing it. But, again, for over a decade we have been seeing 
some distinctions between the two different agencies, but yet 
you have not taken steps to correct some of these areas.
    With the state of the budget--and I would expect, I think I 
heard it today, some of you need additional funds for 
operations; and if I haven't heard it today, I hear it most 
every day from different Federal agencies, that they are 
underfunded.
    Yet, FDA does closed-face meat sandwiches, USDA does open-
face meat sandwiches. FDA does the frozen pizza, and USDA does 
the pepperoni. FDA does hot dogs on a roll and the USDA does 
hot dogs on a pastry dough. FDA does beef soup and USDA does 
chicken soup. FDA does chicken broth, but USDA does beef broth.
    It is very difficult for me to tell my constituents that we 
are running these agencies in an efficient manner.
    I appreciate you have done things this way and--for 
whatever reason, but the reason we are here today is you 
haven't taken steps to correct some of these problems.
    I guess, Dr. Brackett, I want to ask you one more question 
and then move on. Do you think there is room for improvement in 
the organizational structure?
    Mr. Brackett. Well, in each agency, I think we continually 
look at the organizational structure to find out the best and 
most efficient way to use our resources that we have. So I 
think there is always room for improvement, and I think we are 
always looking for ways to improve what we do.
    Mr. Porter. What would you suggest for organizational 
reforms as we move into the future? You are the expert. We are 
Members of Congress and, of course, trying to take all the 
information we can and come up with some possible solutions.
    What would you suggest needs to be done to help improve the 
efficiency and performance of your agency?
    Mr. Brackett. Well, I think the main thing is that the two 
agencies, regardless of the structure, are built upon what we 
consider to be very strong food safety systems. That is the 
reason for our being, and anything that would change the 
structure would have to be looked at to see if it affected 
that. That would include such things as maybe a Farm to Table 
approach. The organization has to address that. It has to 
address the proper amount of outreach to the consumers, as well 
as to the regulated industry and the amount of research needed 
to back up science-based decisions, which are based on risk 
assessments.
    It would also include the proper funding, surveillance and 
reporting back, so that we knew that what we were doing is 
efficient. Any kind of organizational change would have to be 
looked at with that in mind, and also so that we would still be 
in harmony with our legislative directives.
    Mr. Porter. Dr. Pierson.
    Mr. Pierson. Yes, we can, and we have created 
organizational charts of new vintages and looked at them and 
said, oh, we will do better under this structure and that 
structure. I know when I first came in the under secretary's 
office, one of the first thing we did was to do some 
reorganization at FSIS.
    One can do that. But I think the fundamental, important 
concept here is, regardless of whether or not you are in FSIS, 
FDA, EPA or combinations thereof, you have to have cooperation 
and communication and coordination, and, to me, that is the key 
to moving forward.
    One of the examples that I think is very appropriate is the 
cooperation, coordination and communication that occurred in 
addressing the BSE situation here in the United States. Through 
cooperative efforts of a number of agencies, we were able to 
provide consumers with immediate assurance of the safety of our 
beef supply and to coordinate very, very tireless efforts to 
reopen markets. We are very hopeful that is going to happen. 
But it required a tremendous amount of coordination between 
agencies within USDA, with FDA and many others--the State 
Department, USTR, etc.
    So it is that coordination, I think, that is just so key 
and so essential. If we act as stovepipes regardless of our 
structure, we are not going to get ahead. We have to work 
together.
    Mr. Robinson. Mr. Chairman, may I weigh in?
    Mr. Porter. Yes, but I want to comment first.
    I appreciate your comments, but unfortunately, I don't 
think you answered the question. I would agree that we need 
more cooperation, and there is no question we need more 
coordination. But what specific organizational reforms do you 
think are needed? Again, yes, we need more coordination and 
more cooperation.
    But beyond those good political terms, what do you suggest 
specifically be done, Doctor?
    Mr. Pierson. Well, I think at this point for me to sit here 
and provide some type of structure without working with my 
colleagues and others at USDA and the like, you know, without 
having that coordinated effort to give you a distinct answer in 
terms of representing USDA, I think that would be inappropriate 
for me.
    Mr. Porter. Isn't that your job? I am sorry, isn't this 
your responsibility?
    Mr. Pierson. Yes. Well, I am Acting Under Secretary for 
Food Safety in USDA, correct.
    Mr. Porter. So your answer today is cooperation and 
coordination?
    Mr. Pierson. I think that is done very effectively. If we 
talk about any type of restructuring, I think it has to be 
through a collaborative effort to come out with a plan; and for 
me, right now, to lay out a plan, I think I would have a lot of 
people that I would be having to have further discussions with. 
I think it is quite appropriate for me to work with others in 
moving forward, if we were to discuss such things.
    Mr. Porter. Thank you, Doctor.
    Mr. Robinson.
    Mr. Robinson. I was going to weigh in relative to the BSE 
issue. We have done work on BSE, and I think it speaks to this 
exact point you are raising here, that we pointed out 
situations in our work where FDA, who had identified 
potentially contaminated feed and didn't inform USDA of those 
events and potentially--fortunately, it didn't turn out--
potentially put the system at risk. FDA's own acting counsel, I 
think, has referred to the structure between FDA and USDA as 
hampering Federal abilities to deal with this issue.
    I also want to come back to your opening statement that the 
problems here are unfortunately rooted in statute. The various 
systems are directed largely by statute, and the statutes 
direct that USDA has to have an inspector at every plant 
looking at every carcass, carcass by carcass by carcass. Those 
resources can't be shifted to other higher priority areas.
    We now know that the food safety threats are seafood first, 
fruits and vegetables second, eggs third, and meat and poultry 
fourth. The resources by statute are heavily directed toward 
the fourth priority and not priorities one through three. That 
is not something that the agencies can do a heck of a lot 
about. They are directed by statutes to do certain things the 
way they are doing them now.
    Mr. Porter. Mr. Robinson, I partially agree, but partially 
disagree. Yes, it is directed by statute, but I would hope that 
the agencies wouldn't expect all the statutes to come out of 
this body. I would expect that in their role and 
responsibilities, they would bring forward ideas and 
suggestions, because if they don't, then we are going to pass 
legislation that may well be another Band-Aid.
    I guess I agree with you, but we should take it a step 
further. These are the experts, and we would hope in the future 
that they would bring forward their own, and possibly they have 
before my tenure. But I think your point is well taken.
    Mr. Robinson. We recommended they do just that. Obviously, 
I think you are hearing today there is no likelihood of that 
occurring any time soon.
    Mr. Porter. I won't repeat that, but I will concur. I think 
that is part of the problem.
    What I would like to do is say thank you to the panel for 
being here, for your testimony. There may well be followup 
questions.
    I also ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, and that any answers provided by the 
witnesses also be included in the record. Without objection, so 
ordered.
    I also ask unanimous consent that all exhibits, documents 
and the materials referred to by the Members and witnesses may 
be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    Again, I want to say, thank you all. I appreciate that we 
have one of the best systems in the world. We are here today 
just trying to make it a little bit better.
    Thank you all for being here, and the meeting is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2707.076

[GRAPHIC] [TIFF OMITTED] T2707.077

[GRAPHIC] [TIFF OMITTED] T2707.078

[GRAPHIC] [TIFF OMITTED] T2707.079

[GRAPHIC] [TIFF OMITTED] T2707.080

[GRAPHIC] [TIFF OMITTED] T2707.081

[GRAPHIC] [TIFF OMITTED] T2707.082

[GRAPHIC] [TIFF OMITTED] T2707.083

[GRAPHIC] [TIFF OMITTED] T2707.084

[GRAPHIC] [TIFF OMITTED] T2707.085

[GRAPHIC] [TIFF OMITTED] T2707.086

[GRAPHIC] [TIFF OMITTED] T2707.087

[GRAPHIC] [TIFF OMITTED] T2707.088

[GRAPHIC] [TIFF OMITTED] T2707.089

[GRAPHIC] [TIFF OMITTED] T2707.090

[GRAPHIC] [TIFF OMITTED] T2707.091

[GRAPHIC] [TIFF OMITTED] T2707.092

[GRAPHIC] [TIFF OMITTED] T2707.093

[GRAPHIC] [TIFF OMITTED] T2707.094

[GRAPHIC] [TIFF OMITTED] T2707.095

[GRAPHIC] [TIFF OMITTED] T2707.096

[GRAPHIC] [TIFF OMITTED] T2707.097

[GRAPHIC] [TIFF OMITTED] T2707.098

[GRAPHIC] [TIFF OMITTED] T2707.099

[GRAPHIC] [TIFF OMITTED] T2707.100

[GRAPHIC] [TIFF OMITTED] T2707.101

[GRAPHIC] [TIFF OMITTED] T2707.102

                                 <all>

</pre></body></html>
